      Department of Homeland Security





      Unneeded Funding and Management Challenges
      Associated with the FEMA Grant Awarded to Los
      Angeles County, California: Third Interim Report




DS-13-10                                          June 2013

                                 Ol-BeE OF INSPECTOR GENERAL
                                      DqJartmt:rlt ,Ir Homeland Security



                                                    JUN 1 1 2013

MEMO RAN DU M FOR:                    N;mcy    W ~rd


                                      ::~;~:'~~:~;;.;;;;' Region IX
FROM:                                 John V.

                                      ~:~;:·:~~~~~:::M.~"::a;gement                Ove rsight

SUBJECT:                              Unneeded Funding and Mcm()l}ement Challenges
                                      Associated with the FEMA Grant Awarded ta Los AlUJelef
                                      County, Colifornto: Third Interim Report
                                      FEMA Disaster Numbe r 1577-DR -CA
                                      Audit RepOrt Number DS-13-10

We are currently audit ing Federal Emergen cy Management Agen cy (F EMA) Public
Assistance (PA) Prog ra m grant funds award ed t o Los Angeles County, California
(County), PA Id l.'ntificati on Number 037-99037-00. Our audit obJl.'ct/ve Is t o determin e
wh eth "'r the County accounted for and ",~p e l"l ded FEM A PA grant fu nds ar:c;ord ing to
federal regu"'l;on ~ and f EM A. guide lines.

The california Emerge ncy Ma nagemenl A.gency (Ca l EMA), a FEMA gl" antet', award ",d
t he County $54.9 milli on fo r costs ruultl ns from storms, floodin g. de bris flows, and
muds lides durin g t he pe riod of Decemher 27, 2004, through Jilnua rv 11, 2005.' The
award provid ed 75 percent FEMA funding for 143 large project ~ and 3S small project~. l
Our aud it covered th e per iod from Dece mb er 27, 2004, to January 29, 20ll. We are in
th e process o f au dit ing a t ota l of lOS large projects, wit h tot ~1 awa rded fu nding of
$44.S miUion . We a re comprehe nsively aud ;l;nS 12 of those projects-with total ilwarded
funding of $1 7.0 milliOn- and aud it ins 96 proJects - with total aWilrded funding of
$27.8 m iliion- eXl;lusively fo r funch that c:tn be deobrigated ilnd put 10 better use_l

The purpo5e of tfliS mem orand um i5 to ~d vls e yo u t hat although we ha\le not yet
com pleted our fln a I report on the Cou nty lor thi s disaster, we ne\lertfl elen identified
unneeded fundin g th at can immediately bl.' deo bligated and put to bette r use, as well as


, At the time of thiS   dlsilsler, th" Br~ntee"'. name was the Governor's OfIk e of f m...J"OCY Se<W:es, whm
bl!<:~me pan     of ~I EM.... on lionu. " 1. 1009.
, Fcd~ral regulations In effect 81 tm. ilme of the d;SoHI'" l.et th~ lalBe PIOjKt thleYlold '" $55,500.
'Th;. int .... im '~ 011 ptl!-i«lU IIOOilllll' leiatRU te 23 elthe 96 projem ~ud it"" for I",ods tNt ce " ld toe
det>b liH"tt'd or.d put to tJ.etli1r " Ie lioclud inl: l ol lho:! 12 pteJe<1O we ,ompI~51ve-ty i " dited l.
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   several important management and administrative issues that should be timely
   addressed.

   We conducted this segment of this performance audit between August 2012 and
   January 2013, pursuant to the InspectorfGeneralfActfoff1978, as amended, and
   according to generally accepted government auditing standards. Those standards
   require that we plan and perform the audit to obtain sufficient, appropriate evidence to
   provide a reasonable basis for our findings and conclusions based upon our audit
   objective. We believe that the evidence obtained provides a reasonable basis for our
   findings and conclusions based upon our audit objective. We conducted this audit
   applying the statutes, regulations, and FEMA policies and guidelines in effect at the time
   of the disaster. At the conclusion of our audit, we plan to issue our final audit report
   (notwithstanding the issuance of any additional interim reports), including any other
   findings and recommendations.

   We interviewed FEMA, State, and County officials; judgmentally selected project costs
   (generally based on dollar value); evaluated applicable Federal regulations and FEMA
   guidelines, as well as previously issued audit reports and audit documentation relating
   to the County’s grant award; and performed other procedures considered necessary to
   accomplish our audit objective. We did not assess the adequacy of the County’s internal
   controls applicable to its grant activities because it was not necessary to accomplish our
   audit objective. However, we gained an understanding of the County’s method of
   accounting for disaster-related costs and its policies and procedures for administering
   activities provided for under the FEMA grant.


                                            RESULTS OF AUDIT

   We identified $2,441,506 in funding that should be put to better use, as well as various
   grant administration and management practices that should be improved.

   Finding A: Unneeded Funding

   The County has (an additional) $2,441,506 in unneeded funds, from 21 projects for
   which final costs have been accounted, that should be put to better use.

   In March 2012, we issued an interim audit report recommending that FEMA deobligate
   and put to better use $16,069,737 in excess funds on 79 public assistance projects that
   the County completed between 2005 and 2006.4 FEMA concurred with that


                                       

   4
       DS-12-06 (March 2012) (http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-12-06_Mar12.pdf). 



www.oig.dhs.gov                                       2                                               DS-13-10 

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security
   recommendation, and in May 2012 deobligated and recovered that amount.5 During
   the course of this audit, we identified an additional $2,441,506 in unneeded PA funds on
   21 other projects, the majority of which were completed in 2006.

                             Table 1. Unneeded Funding by Project
                         Project
          Project                    Project Costs Project Completion                 Unneeded
                          Award
          Number                       Incurred            Date                        Funding
                         Amount
           1495           $104,473          $7,238   August 4, 2006                      $97,235
           1499             66,711               0   August 4, 2006                       66,711
           2664            611,587         38,5401 December 31, 2009                     226,186
           2708            126,694         126,694 December 31, 2009                           0
           2731            256,485         113,778   August 4, 2006                      142,707
           2751            681,771         420,561 December 31, 2009                     261,210
           2874            130,130          96,809   August 4, 2006                       33,321
           2951             92,721          66,858   August 4, 2006                       25,863
           2956            743,156         517,176 December 31, 2008                     225,980
           2965            127,695         124,695   August 4, 2006                        3,000
           2968            958,725         607,012  January 29, 2010                     351,713
           2970            110,587          35,519   August 4, 2006                       75,068
           2982            112,803          48,844   August 4, 2006                       63,959
           3008            105,416          65,955   August 4, 2006                       39,461
           3038            387,271         921,131 December 31, 2010                           0
           3042            215,866         131,278   August 4, 2006                       84,588
           3064            167,886         111,476   August 3, 2007                       56,410
           3070            568,974         485,058 November 30, 2009                      83,916
           3083            133,670         133,641   August 4, 2006                           29
           3088            282,901         130,724   August 4, 2006                      152,177
           3089             94,675          78,259    July 30, 2008                       16,416
           3108            754,404         467,526   March 25, 2010                      286,878
           3176            223,347          74,669   August 4, 2006                      148,678
          Totals:       $7,057,948      $5,150,302                                   $2,441,5066

   These funds must be deobligated and put to better use because—

       •	 According to 44 Code of Federal Regulation (CFR) 206.205(b)(1), the grantee
          (State) shall make an accounting to the FEMA Regional Administrator of eligible

   5
     The FEMA Region IX Administrator notified us on May 31, 2012, that FEMA concurred with our report
   recommendation and consequently approved and processed the deobligation of the excess funding.
   6
     Unneeded funding reflects only those projects where the final costs were below the FEMA-awarded
   amount (and therefore does not include $533,860 in cost overruns associated with Project 3038).


www.oig.dhs.gov                                      3	                                             DS-13-10

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
            costs for each large project and shall certify that reported costs were incurred in
            the performance of eligible work, that the approved work was completed, that
            the project was in compliance with provisions of the FEMA-State Agreement,
            and that payments for that project have been made in accordance with Federal
            regulations.

       •	 Federal appropriations laws and the Statement of Federal Financial Accounting
          Standards (SFFAS) require Federal agencies to record obligations in the
          accounting records on a factual and consistent basis throughout the government.7
          The overrecording and the underrecording of obligations are equally improper,
          as both practices make it impossible to determine the precise status of Federal
          appropriations. When the precise amount is not known at the time that the
          obligation is incurred, agencies appropriately record an obligation based on the
          best estimate at the time. Agencies, however, must periodically adjust that
          obligation as more precise data on the liability become available. That is, the
          agency must increase or decrease obligated funds when probable and
          measurable information becomes known.8 Agencies must document both the
          initial recordings and the adjustments to recorded obligations.

       •	   FEMA officials have noted that deobligating unneeded funding from completed
            projects in a timely manner can improve FEMA’s overall management of a
            disaster and make funding available for other disaster projects.9

   Therefore, we identified $2,441,506 in unneeded funding associated with 21 projects
   that can (and should) be put to better use (table 1).

   County officials concurred with our finding and stated that FEMA has started to
   deobligate the funding. Cal EMA officials also concurred. FEMA officials withheld
   comment.

   Finding B: Untimely Cost Accounting and Claims

   Of the $5,150,302 in project costs identified in finding A, County officials claimed costs
   totaling $2,445,059 for 8 large projects as long as 7 years after the completion date.
   Such delays can affect the availability of funding for other FEMA-funded disaster
   projects, as well as FEMA’s overall management of a disaster. The lack of timely


   7
     U.S. Government Accountability Office, PrinciplesfoffFederalfAppropriationsfLaw, 3rd Edition, Volume II,
   February 2006, Chapter 7, Section B: CriteriafforfRecordingfObligations (31 U.S.C. Section 1501).
   8
     PrinciplesfoffFederalfAppropriationsfLaw, 3rd Edition, Volume II, Chapter 7, Section B: Criteriafforf
   RecordingfObligationsf(31 U.S.C. Section 1501), February 2006; and Office of Management and Budget
   StatementfoffFederalfFinancialfAccountingfStandards, Number 5, paragraphs 19 and 29, September 1995.
   9
     For example, see DS-09-05 (http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-09-05_May09.pdf).


www.oig.dhs.gov                                        4	                                                DS-13-10

                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
   accounting for costs likewise restricts us from auditing these (eventually claimed)
   costs—which we were unable to do—thus limiting the Federal Government’s ability to
   determine whether the County accounted for and expended these FEMA PA grant funds
   according to Federal regulations and FEMA guidelines.

   County officials just recently accounted for $2,445,059 in incurred costs for the
   following eight large projects:

                            Table 2. Recently Claimed Costs by Project
                                                         Claimed Costs –
        Project   Project Award                                                                 Unneeded
                                     Completion Date      7+ Years After
        Number       Amount                                                                      Funding
                                                             Disaster
         1495          $104,473       August 4, 2006                $7,238                           $97,235
         1499             66,711      August 4, 2006                     0                            66,711
         2664           611,587 December 31, 2009                 385,401                            226,186
         2708           126,694 December 31, 2009                 126,694                                   0
         2751           681,771 December 31, 2009                  420,561                           261,210
         2951             92,721      August 4, 2006                66,858                            25,863
         2956           743,156 December 31, 2008                 517,176                           225,980
         3038           387,271       May 15, 2011                921,131                                   0
                                                                                                           10
        Totals:      $2,814,384                                $2,445,059                         $903,185

   Our review determined that six of these projects had a total of $903,185—or 32 percent
   of the total award of $2,814,384—that was unneeded and could be put to better use.11

   Costs funded under the FEMA PA Program must be accounted for in a timely manner
   after project completion because—

         •	 According to 44 CFR 206.205(b)(1), the grantee (State) shall make an accounting
            to the FEMA Regional Administrator of eligible costs for each large project and
            shall certify that reported costs were incurred in the performance of eligible
            work, that the approved work was completed, that the project was in
            compliance with provisions of the FEMA-State Agreement, and that payments
            for that project have been made in accordance with Federal regulations.

         •	 Federal appropriations laws and the SFFAS require Federal agencies to record
            obligations in the accounting records on a factual and consistent basis



   10
      Unneeded funding reflects only those projects where the final costs were below the FEMA-awarded
   amount (and therefore does not include $533,860 in cost overruns associated with Project 3038).
   11
      These costs are included in the total project costs we identified for deobligation (see finding A, above).


www.oig.dhs.gov                                          5	                                                  DS-13-10

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
           throughout the government.12 The overrecording and the underrecording of
           obligations are equally improper, as both practices make it impossible to
           determine the precise status of Federal appropriations. When the precise
           amount is not known at the time that the obligation is incurred, agencies
           appropriately record an obligation based on the best estimate at the time.
           Agencies, however, must periodically adjust that obligation as more precise data
           on the liability become available. That is, the agency must increase or decrease
           obligated funds when probable and measurable information becomes known.13
           Agencies must document both the initial recordings and the adjustments to
           recorded obligations.

        •	 FEMA officials have noted that deobligating unneeded funding from completed
           projects in a timely manner can improve FEMA’s overall management of a
           disaster and make funding available for other disaster projects.14

   Therefore, Cal EMA and County officials must ensure timeliness in accounting for and
   claiming project-related costs for FEMA funding.

   We discussed this issue with County and Cal EMA officials, who generally concurred with
   our finding. FEMA officials withheld comment.

   Finding C: Grant Management

   FEMA, Cal EMA, and County officials did not consistently fulfill their responsibilities to
   manage the FEMA PA grant, as required. The findings described within this series of
   audit reports on the County derive from, or are exacerbated by, insufficient grant
   management.

   FEMA officials did not properly account for grant funds, nor did they properly monitor
   Cal EMA officials’ grant management responsibilities to assure compliance with Federal
   regulations, FEMA’s policies, and the PA Administrative Plan. Cal EMA and County
   officials did not consistently manage the operations of subgrant activity and monitor
   that activity to ensure compliance with applicable Federal requirements.

   Further, FEMA and Cal EMA officials (jointly) did not produce a final, approved State
   Administrative Plan for the year of the disaster, as required by Federal regulations at


   12
      U.S. Government Accountability Office, PrinciplesfoffFederalfAppropriationsfLaw, 3rd Edition, Volume II,
   February 2006, Chapter 7, Section B: CriteriafforfRecordingfObligations (31 U.S.C. Section 1501).
   13
      PrinciplesfoffFederalfAppropriationsfLaw, 3rd Edition, Volume II, Chapter 7, Section B: Criteriafforf
   RecordingfObligationsf(31 U.S.C. Section 1501), February 2006; and Office of Management and Budget
   StatementfoffFederalfFinancialfAccountingfStandards, Number 5, paragraphs 19 and 29, September 1995.
   14
      For example, see DS-09-05 (http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-09-05_May09.pdf).


www.oig.dhs.gov                                         6	                                                DS-13-10

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   44 CFR 13.11 and 44 CFR 206.207(b)(1), as well as FEMA’s PA Policy Digest (FEMA 321;
   page 118). An approved plan must be on file with FEMA beforefgrants will be approved
   for any major disaster. This plan is critical because it identifies staffing functions in the
   PA program and documents procedures for administering the PA program. Without an
   approved plan, FEMA had no assurance of the FEMA-State coordination that is essential
   during emergency periods and whether Cal EMA could effectively administer and
   manage the PA grant program.15

   FEMA policy dictates that the PA Program is based on a partnership between FEMA,
   grantee, and subgrantee officials. Although FEMA is responsible for managing the
   program, approving grants, and providing technical assistance to the grantee and
   subgrantee, grantee and subgrantee officials have specifically mandated responsibilities.
   Federal regulations and FEMA policy establish mandatory requirements and uniform
   administrative rules for grants and procedures for PA project administration.

   Grantee officials, who are responsible for educating potential applicants and providing
   technical support, working with FEMA to manage the program, and implementing and
   monitoring the grants awarded under the program, must—

        •	 Be accountable for proper grant administration (FEMA-State Agreement).

        •	 Ensure that subgrantees are aware of requirements imposed on them by Federal
           regulations. (44 CFR 13.37(a)(2)).

        •	 Manage the day-to-day operations of subgrant activity and monitor subgrant
           activity to assure compliance with applicable Federal requirements. (44 CFR
           13.40(a)).

   Further, grantee officials must partner with subgrantee officials, who themselves are
   responsible for funds provided by FEMA, identifying damage, providing information
   necessary for FEMA to approve grants, and managing the projects funded under the PA
   program, to ensure that—

        •	 Expenditures can be traced to a level that ensures that funds have not been used
           in violation of the restrictions and prohibitions of applicable statutes. (44 CFR
           13.20(a)(2)).




   15
     This is not an isolated occurrence: we reported the same finding during our audit of a different
   subgrantee, for the following year, and for a different (subsequent) disaster (DR-1628-CA). Refer to DS-
   11-07 (Finding G); http://www.oig.dhs.gov/assets/GrantReports/OIG_DS-11-07_Feb11.pdf.


www.oig.dhs.gov                                        7	                                                DS-13-10

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

       •	 Financial management systems and financial reports are accurate, current, and
          complete, and in accordance with financial reporting requirements of the grant
          or subgrant. (44 CFR 13.20(b)(1)).

       •	 Accounting records are maintained that adequately identify the source and
          application of funds provided for financially assisted activities, and include
          information pertaining to grant or subgrant awards and authorizations,
          obligations, unobligated balances, assets, liabilities, outlays or expenditures, and
          income. (44 CFR 13.20(b)(2)).

       •	 Proper controls are maintained, and source documentation and accounting
          records support subgrant activity. (44 CFR 13.20(b)(2-6)).

   As of October 29, 2012, FEMA had obligated $4.9 million in management fees—grantee
   administrative costs and State management costs—to Cal EMA for managing $254 million
   in approved grant funds for the State of California for Disaster 1577. Although we are
   not commenting on the overall reasonableness of these management fees, we reiterate
   that FEMA is paying Cal EMA to manage these PA grants in tandem with County officials
   and should therefore—in addition to improving its own grant management
   procedures—require Cal EMA, as the grantee, to develop and implement policies and
   procedures to better manage its responsibilities under these grants. Until that occurs,
   the millions in PA funding awarded to the County, through the State, is at risk of being
   improperly used.

   County officials withheld comment on this matter. Cal EMA officials partially concurred,
   and stated that (1) they do not have sufficient staff to provide continuous oversight of
   FEMA grants and subgrantees, and (2) FEMA officials did not respond to their updated
   State Administrative Plan, which was revised to FEMA’s specifications. FEMA officials
   withheld comment.


                                         RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX—

   Recommendation #1: Deobligate $2,441,506 (Federal share $1,831,130) in unneeded
   funding associated with 21 projects and put those Federal funds to better use (finding
   A).

   Recommendation #2: Require Cal EMA, as the grantee, to ensure that subgrantee costs
   are timely accounted for, and claimed, upon project completion (finding B).




www.oig.dhs.gov                                 8	                                        DS-13-10

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   Recommendation #3: Review costs, for eligibility and support, which could not be
   audited during our fieldwork because the subgrantee had not yet accounted for those
   costs (finding B).

   Recommendation #4: Work with Cal EMA to finalize the State Administrative Plan for
   the year of the disaster (finding C).

   Recommendation #5: Ensure that the State Administrative Plan, once finalized, is
   disseminated—and easily accessible—to each relevant stakeholder (finding C).

   Recommendation #6: Require Cal EMA, as the grantee, to develop and implement
   policies, procedures, and training to better manage its responsibilities under PA grants,
   to ensure that (1) grant and subgrant financial and project status reports are accurately
   reported, (2) expenditures can be traced to a level that ensures that funds have not
   been used in violation of applicable statutes, and (3) Cal EMA and its subgrantees
   adhere to the specific provisions of applicable Federal regulations and FEMA policy
   when administering the grants (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

   We discussed these results with County officials during this audit and included their
   comments in this report, as appropriate. We also provided a written summary of our
   findings and recommendations in advance to Cal EMA and County officials on December
   3, 2012, and FEMA officials on January 29, 2013. We discussed the findings and
   recommendations at an exit conference with Cal EMA and County officials on January
   23, 2013. FEMA officials declined an exit conference and withheld comments on this
   report at this time.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the InspectorfGeneralfAct, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.




www.oig.dhs.gov                                9                                         DS-13-10

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
   Major contributors to this report are Humberto Melara, Western Regional Office
   Director; Devin Polster, Supervisory Analyst; Ravi Anand, Senior Auditor; and Montul
   Long, Auditor.

   Please call me with any questions, or your staff may contact Humberto Melara at (510)
   637-1463.




www.oig.dhs.gov                              10                                           DS-13-10

                                  OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
                                                                                               EXHIBIT

                                   Schedule of Audited Projects
                                   Los Angeles County, California 

                                 December 2004 to January 2013 

                      Public Assistance Identification Number 037-99037-00 

                               FEMA Disaster Number 1577-DR-CA 


                      FEMA           Project
       Project                                    Project Costs Project Completion Unneeded
                    Category of      Award
       Number                                       Claimed               Date           Funding
                       Work         Amount
                                  Projects Audited Comprehensively
        2968            C             $958,725        $607,012     January 29, 2010       $351,713
        3108            C              754,404         467,526      March 25, 2010         286,878
      Subtotals                     $1,713,129      $1,074,538                            $638,591
                Projects Audited for Funds Put to Better Use and Timeliness of Cost Accounting
        1495            C             $104,473          $7,238      August 4, 2006         $97,235
        1499            C                66,711                0    August 4, 2006          66,711
        2664            C              611,587         385,401 December 31, 2009           226,186
        2708            C              126,694         126,694 December 31, 2009                 0
        2731            E              256,485         113,778      August 4, 2006         142,707
        2751            C              681,771         420,561 December 31, 2009           261,210
        2874            C              130,130          96,809      August 4, 2006          33,321
        2951            C                92,721         66,858      August 4, 2006          25,863
        2956            C              743,156         517,176 December 31, 2008           225,980
        2965            C              127,695         124,695      August 4, 2006           3,000
        2970            C              110,587          35,519      August 4, 2006          75,068
        2982            C              112,803          48,844      August 4, 2006          63,959
        3008            C              105,416          65,955      August 4, 2006          39,461
        3038            C              387,271         921,131 December 31, 2010                 0
        3042            C              215,866         131,278      August 4, 2006          84,588
        3064            F              167,886         111,476      August 3, 2007          56,410
        3070            C              568,974         485,058 November 30, 2009            83,916
        3083            C              133,670         133,641      August 4, 2006               29
        3088            C              282,901         130,724      August 4, 2006         152,177
        3089            F                94,675          78,259      July 30, 2008          16,416
        3176            C              223,347          74,669      August 4, 2006         148,678
      Subtotals                     $5,344,819      $4,075,764                          $1,802,915
       Totals                       $7,057,948      $5,150,302                          $2,441,506

   Note: Unneededffunding reflects only those projects where the final costs were below the FEMA-awarded
   amount (and therefore does not include $533,860 in cost overruns associated with Project 3038).




www.oig.dhs.gov                                     11                                              DS-13-10
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                                                   APPENDIX


                                      Report Distribution

   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison
   Acting Chief Privacy Officer

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-010)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Followup Coordinator

   Grantee (California Emergency Management Agency)

   Secretary
   Executive Assistant to the Secretary
   Chief of Staff
   Audit Liaison

   State (California)

   California State Auditor, Bureau of State Audits




www.oig.dhs.gov                               12                        DS-13-10

                           OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
   Subgrantee (Los Angeles County, California)

   Chief Executive Officer
   Senior Manager
   Interim Manager
   Principal Accountant-Auditor

   Congressional Oversight and Appropriations Committees, as appropriate, including:

   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform
   House Committee on Transportation and Infrastructure

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                               13                                   DS-13-10

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
